                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OI:FICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A08030007                                                                        Page 1 of 1



                                                                                                 i
                 The National Science Foundation (NSF) Office ofInspector General (OIG) conducted an
         inquiry into an allegation the Subject i submitted an NSF proposal 2 containing plagiarism. We
         concluded there was sufficient evidence to proceed with an investigation.

                  We referred the matter to the University.3 The University concluded, based on a
         preponderance of the evidence, that the Subject carelessly committed plagiarism, deemed a
         significant departure from accepted practices. The University required the Subject: 1) write
         letters of apology to the University, NSF, and authors of the source documents; 2) vet all his
         written papers by his dissertation chair and department chair for one year; 3) be ineligible for
         additional departmental funding; 4) attend an academic integrity seminar; and 5) either give an
         ethics/plagiarism presentation at a graduate student orientation or prepare a syllabus and
         materials for a research ethics class.

                 We accepted the University's Report and its evidentiary record. However, we disagreed'
         with its determination oflevel of intent. We concluded, based' on a preponderance of the
         evidence, that the Subject recklessly committed plagiarism in proposals, deemed a significant
         departure from accepted practices.

                 We recommended NSF make a finding of research misconduct against the Subject; send the
         Subject a letter of reprimand; require certifications from the Subject for 1 year; require the Subject
         provide OIG materialsdeveloped for University-imposed presentation on research ethics; and require
         certification of attending an ethics class within 1 year. The Deputy Director concurred with our
         recommendations. The Subject did not appeal the Deputy Director's decision.

                 This memo, the attached Report of Investigation, and the Deputy Director's letter constitute
         the case closeout. Accordingly, this case is closed.




NSF OIG Fonn 2 (11/02)
                                                                                                              CONFIDENTIAL
CONFIDENTIAL




          National Science Foundation
          Office of Inspector General




                        Confidential
                  .Report' of Investigation
                  Case Number A08030007
                          25 September 2009


  .   .   ".              '.    •   . " '••• , !   ."'.'   ...";   '.   . .••.   . .'.'   L   .,   . .         ,   .   '.   "   ~   •


  .This Confidential Report of Investigationi~the properti'()fthe.NSF OIG'andmay be disclosed outside
        NSF only by DIG under the Freedo~ '9'finfo~matio~ and Priva~y Acts, 5 U.S.c.§§ 552, 552a. "
            .                  ,. : .              .   .," , : . . . . . '                                   . . ·'ft

                                                                                                         NSF OIG Form 22b (11/06)
CONFIDENTIAL                                                                        CONFIDENTIAL


                                         Executive Summary

Allegation:       Plagiarism.

OIG Inquiry:      OIG identified 2 sources from which approximately 46 unique lines and 13
                  embedded references were allegedly copied into 1 declined NSF proposal by the
                  Co-PI. OIG referred the matter to the Co-PI's University.          .

University
Investigation
and Action:       The University's Report concluded, based on a preponderance of the evidence,
                  that the Co-PI carelessly committed plagiarism in the NSF proposal, which it
                  deemed a significant departure from accepted practices. The University did not
                  make a finding of research misconduct, but did determine plagiarism occurred.
                  The University imposed the following actions: 1) the Co-PI must write letters of
                  apology to the University, NSF, and authors of the source documents; 2) the Co-
                  PI must vet all his written papers by his dissertation chair and department chair
                  for one year; 3) the Co-PI is ineligible for additional departmental funding; 4) the
                  Co-PI must attend an academic integrity seminar; and 5) the Co-PI must either
                  give an ethics/plagiarism presentation at a graduate student orientation or prepare
                  a syllabus and materials for a research ethics class.

OIG Assessment:      Overall, OIG concurred with the University assessment, but disagreed with
                     its determination of level of intent.
                          • The Act: The Co-PI committed plagiarism by copying 46 unique
                              lines and 13 embedded references from 2 source documents into I,
                              declined proposal.
                          • Intent: The Co-PI acted recklessly.
                          • Standard of Proof: A preponderance of evidence supports the
                              conclusion that the Co-PI committed plagiarism.
                          • Significant Departure: The Co-PI's plagiarism represents a
                              significant departure from accepted practices.
                          • Pattern: No pattern was established.
OIG Recommends:
                         •      Make a finding of research misconduct against the Co-PI.
                         •      Send the Co-PI a letter of reprimand.
                         •      Require certifications from the Co-PI for a period of 1 year.      ,
                         •      Require the PI send OIG all materials developed for the University-
                                imposed presentation on research ethics.
                         •      Require certification of completion of a course in research ethics
                                within a year.




                                                   1
CONFIDENTIAL                                                                                    CONFIDENTIAL


                                                 OIG's Inquiry

        The National Science Foundation (NSF) Office ofInspector General (OIG) received an         .;
allegation that an NSF proposal (Proposal!) written by a Doctoral Advisor (Pli and a Ph.D. Student
(Co-PI)3 contained plagiarism. Our analysis identified approximately 46 unique lines of text and 13
embedded references 4 allegedly copied from an academic paper (Source A)5 and a published article
(Source B).6

        Given the nature of the proposal (a Doctoral Dissertation Improvement Grant) and a review
of other proposals by the pC that did not identify plagiarism, OIG contacted only the Co-PI about
the allegation. 8

       In his response, the Co-PI said he was the proposal's "primary and sole author" and
acknowledged "the material highlighted was copied from the stated sources A and B.,,9 He
explained:

                 My practice of writing papers and proposals in the past has been to cut and
                 paste relevant passages to be used as citations or quotes into a word file
                 changing color or style of font to ensure that it was not being copied
                 verbatim into my original work. As relevant passages are used they are
                 properly cited or quoted and the source material is deleted from the
                 working file.

                 In this case the source material was not deleted and was submitted as it
                                                                          ';

                 was. Although, for me, it is unclear how this may have happened, I think it
                 may have occurred during the process of making a PDF. The file is saved
                 before being converted and I must have saved and converted the wrong
                 file. Thinking this was the final draft all other drafts were deleted. I have
                 no other copies of drafts of this proposal. lO

He said "a close reading of the rest of the proposal will show other mistakes in grammar and
punctuation that indicate the nature of this proposal as an early draft." The proposal indicates
"sloppy and lazy scholarship" and "does not reflect my work or how I care others to see my work."ll

        The Co-PI's response did not dispel the allegation because he acknowledged having copied
material into the Proposal. We concluded there was sufficient evidence to proceed with an
investigation, and referred the matter to the University.12                          t




4 The                                       were not                                        sectIOn.
S A typographical error found in Source A was found in the Proposal's Source A-annotated text.
6 Tab 2.
7 OIG reviewed 3 of the PI's other 26 proposals.
8 Tab 3 contains the Inquiry Letter.
9        '.
  Tab 4, InqUIry Response, pg 1.
10 Tab 4, Inquiry Response, pg 1.
II Tab 4, Inquiry Response, pg 2.



                                                          2
CONFIDENTIAL                                                                                  CONFIDENTIAL




                                                                                                The_
                                        University Inquiry and Investigation

       The Vice President for Research and Graduate Dean (VPR)13 accepted the referral and
                               which the University handles academic misconduct.
                                      of the Graduate Colle~e's (GC) would initially investigate the
matter pursuant to the Graduate Catalog AcademicPolicies. 4 The Office of Student Conduct
(OSC) would subsequently investigate the matter pursuant to the Student Conduct Code (SCC)IS
and the Academic Misconduct Policy. 16

        To initiate the process, the Doctoral Advisor (PI) and the Department's Graduate
Coordinator l7 wrote a letter to the VPR describing the allegation and asking "for a thorough
investigation."l8 They stated their "belief is that this is a case of 'careless' (i.e., unintentional),
rather than 'reckless' (i.e., intentional) plagiarism, to use NSF's parlance" but added "this does not
exonerate [the Co-PI] from what was a very careless endeavor." 19 Their letter concluded with
suggested actions.

       FSIC initiated its investigation. In a written statement,20 the Co-PI detailed the
circumstances surrounding the Proposal's composition. He said he wrote the Proposal, other
==tionJpapers, and his first peer-reviewed publication while serving as an academic fellow in
_ a n d experiencing serious computer hardware problems.

                       In this instance I believe I was working between several files; saved and
                       converted the working file replacing the more complete file. After sa~ing
                       and converting I usually check the PDF to insure that the proper file was
                       saved. In this case the first several pages of these were largely unchanged.
                       I did not check the full document and submitted the proposal 'as is' to the
                       NSF not suspecting what had occurred. After submission I moved on to
                       other projects that needed attention at the time, putting the NSF proposal
                       out of my mind?l

The Co-PI however acknowledged "mistaken clicking and hardware issues do not exonerate me
from the issue of plagiarism," adding "I should have been more thorough in checking the files that
were sent were the ones intended. ,,22

       The Co-PI emphasized his action was "not a reckless attempt to pass this work off as my
own, but an unfortunately careless use of technology and unfortunately lazy scholarship.,,23 He
noted he personally knows the authors of Sources A and B. He said:

                                                       Investigation Referral Letter.
                                                               acceptance letter.
                                                         ,,,,v,nUl:'«.L"U the FSIC process.


                                                     UUl''''H<'U   the case.

18 Tab   10, Section   1-4, pg 16.
19 Tab   10, Section   1-4, pg 16-17.
20 Tab   10, Section   1-4, pg 19-23.
21 Tab   10, Section   1-4, pg 22.
22 Tab   10, Section   1-4, pg 22-23.
23 Tab   10, Section   1-4, pg 19.

                                                             3
CONFIDENTIAL                                                                             CONFIDENTIAL       "



                   For a student to knowingly and recklessly attempt to pass of someone's
                   work as their own, knowing that a reviewer may in fact be the original
                   author is incredibly stupid in the least and horribly arrogant and hubristic
                   at its worst. In the current academic and economic climate such an act
                   would be academic and career suicide?4

        The FSIC unanimously concluded25 "plagiarism (as defined by the NSF regulation and by ,
[the University]'s Graduate College Policies) was committed in this 'case," and "constituted a
significant departure from accepted practices at [the University]." They further concluded "a
preponderance of the evidence does not pro"(e that this instance of plagiarism was committed
intentionally, knowingly, or recklessly" because the Co-PI's "actions were careless and sloppy, in.,
part due to the fact that he was experiencing computer problems while doing field research at a
remote location abroad;" because he "would not risk his professional career by recklessly,
knowingly, and/or intentionally plagiarizing text from people he personally knows and deeply
respects;,,26 and because examination of other documents he wrote did not indicate a pattern of
plagiarism. 27 The FSIC concluded "this is not a research misconduct case," but "this instance does
represent a case of plagiarism and, as such, the case will be remitted to [the University]'s Office of
Student Conduct to identifY the appropriate sanctions.,,28

                                             University Adjudication

        OSC further investigated the matter and concurred with the FSIC's findings, adding the Co-
PI's action did not have adverse effects on the research record. The OSC imposed the following
sanctions:

               •   The Co-PI must write letters of apology to the University, NSF, and authors of the
                   source documents;
               •   The Co-PI must vet all his written papers by his dissertation chair and department
                   chair for one year;                   "
               •   The Co-PI is ineligible for additional departmental funding;
               •   The Co-PI must complete a academic integrity seminar; and
               •   The Co-PI must prepare a syllabus and course materials for a research ethics class. 29

The University accepted and imposed the above sanctions, making only one modification:

               •   The Co-PI must either prepare a syllabus and course materials for a research ethics
                   class or must give an et~ics/plagiarism presentation at a graduate student       ~
                   orientation. 3o



24 Tab   10, Section 1-4, pg 23.
2S Tab   10, Section 1-4, pg 25-28.
26 Tab   10, Section 1-4, pg 27.
27 Tab   11 states which documents were reviewed to determine pattern.
28 Tab   10, Section 1-4, pg 28.
29 Tab   10, Section 1-5, pg 12.
30 Tab   10, Section 1-4, pg3.

                                                           4
    CONFIDENTIAL                                                                      CONFIDENTIAL


    According to the University's final report, the University, the GC, the OSC, and the Co-PI all
    agreed on these sanctions.,,31

                                            OIG's Assessment
                                                        32
           The University provided OIG with its Report. OIG reviewed the Report and concludes the
    University followed reasonable procedures and produced an accurate and complete body of
    evidence addressing the allegation. OIG accepts the University's basic factual conclusions in lieu
    of conducting our own investigation, but does not concur with its determination of level of intent.
)
         We informed the Co-PI we had received the Report and invited him to provide additional
    comment. 33 The Co-PI chose not to respond.

            A finding of research misconduct by NSF requires (l) there be a significant departure from
    accepted practices of the relevant research community, (2) the research misconduct be committed
    intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a preponderance of,
    the evidence. 34

                                                  The Act

             The Co-PI plagiarized 46 unique lines and 13 embedded references from 2 sources - an
    academic paper and a published article - within 1 declined NSF propo,sal. When contacted by our'
    office, the Co-PI immediately acknowledged he copied the material in the submitted proposal,
    however, contended he erred in submitting an earlier draft of the proposal he had believed was and
    that he saved as the final draft. He accepted full responsibility for his action.

            OIG concurs with the Committee that the Co-PI significantly departed from the accepted
    standards of the research community, which the Report deemed the University, in including this
    verbatim material in a manner suggesting it was his own rather than others' work. Further, his
    inclusion of 13 embedded references misrepresented his own effort and underlying body of
    knowledge.

                                                   Intent

           The FSIC, the OSC, and the University concluded the Subject acted carelessly, but their
    discussions of intent indicates they equated 'careless' with 'unintentional' and 'reckless' with




    31   Tab 10, Section 1-4, pg 3.
    32   Tab 10.
    33   Tab 12.
    34   45 C.F.R. §689.2(c).




                                                     5
CONFIDENTIAL                                                                                            CONFIDENTIAL


'intentional.,35 However, reckless, knowing and intentional, the three levels of intent with which
the research misconduct regulation is concerned, are not the same. 36 By definition,

                   A person acts recklessly with respect to a material element of an offense
                   when he consciously disregards a substantial and unjustifiable risk that the
                   material element exists or will result for his conduct. The risk must be of
                   such a nature and degree that, considering the nature and purpose of the
                   actor's conduct and the circumstances known to him, its disregard
                   involves a gross deviation from the standard of conduct that a law-abiding
                   person would observe in the actor's situation?7

In other words, a person acts recklessly, if, according to community standards, that person acts in a
manner highly contrary to how a reasonable and ordinarily prudent person would act under like
circumstances.

We conclude the University erred in examining the matter as simply a dichotomy between
careless/unintentional and reckless/intentional because we believe a person with a similar academic
experience level as the CO-PI would not have cut and pasted a significant amount of text without
making certain that he/she made adequate attribution to the source or changed the language
sufficiently to make it their own.

        Rather, OIG concludes the Co-PI acted recklessly when he submitted the Proposal
containing improperly cited text. The Co-PI should have ensured the document he was submitting to
NSF was the final appropriately cited document, especially since he was aware his computer was
experiencing hardware issues. Additionally, given the methodology the Co-PI uses for incorporating
sources in his writings, he should have double checked his document to ensure he had indeed
reworded all ofthe material he initially copied verbatim. OIG finds the Co-PI's actions are a
significant departure from what is expected of a reasonable person.

                                                    Standard ofProof

       OIG concurs with the Committee that the Co-PI's actions were proven based on a
preponderance of the evidence.

       01 G concludes the Co-PI, by a preponderance of the evidence, recklessly plagiarized,
thereby committing an act of research misconduct. 38                       .




35 For example, both the FSIC report (Tab 10, Section 1-4, pg 28) and the University report states, "It is important to
note that this instance of careless (i.e., unintentional) plagiarism. . . (Tab 10, Section 1-4, pg 2), equating careless with
unintentional. Furthermore, the University report includes without comment the PI and Graduate Coordinator's letter
initializing the investigation, in which they write "this is a case of 'careless' (Le., unintentional), rather than 'reckless'
(Le., intentional) plagiarism, to use NSF's parlance" (Tab 10, Section 1-4, pg 16).
36 Nor are any of them the same as a careless or negligent level of intent.
                                                                                 th
37 "recklessly" as defined in Black's Law Dictionary with Pronunciations. 6 Edition. West Publishing Co. 1990.
38
   45 C.F.R. part 689.                                                                        .

                                                              6
CONFIDENTIAL                                                                         CONFIDENTIAL


                                        OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:
             (1) How serious the misconduct was; (2) The degree to which the
             misconduct was knowing, intentional, or reckless; (3) Whether it was
             an isolated event or part of a pattern; (4) Whether it had a significant
             impact on the research record, research Co-PIs, other researchers,
             institutions or the public welfare; and (5) Other relevant
             circumstances. 39

                                                     Seriousness

       The Co-PIs's actions are a violation of the standards of scholarship established by his
university and as outlined in NSF's Grant Proposal Guide which states:

           Proposers must be especially careful to follow accepted scholarly practices in
           providing citations for source materials relied upon when preparing any
           section of the proposal. 40

The extent of the plagiarism - approximately 46 unique lines and 13 embedded references within 1
declined NSF proposal from 2 sources - is itself serious.

                                       Degree to which Action was Reckless

        As already explained, DIG determined the Co-PI acted recklessly. The Co-PI, a graduate
student in the process of earning his Ph.D., said and the Report concurred that the Co-PI was
working in a foreign country with limited academic resources and with computer hardware issues.
Both the Co-PI and the Report also attested that the Co-PI was also deeply involved in a number of
simultaneous projects. Given the circumstances, the Co-PI recklessly submitted what he believed to
be the final draft of his NSF proposal. The Co-PI neglected to examine the document prior to or
after submission despite knowing he was experiencing hardware issues and despite his methodology
of incorporating other sources into his work, a methodology which leaves him open for allegations
of plagiarism. However, given the Co-PI's current experience level and that no other plagiarism was
identified in his works, DIG concludes the Co-PI's actions were distinctly reckless.

                                                 Pattern

           No pattern of plagiarism was identified.

                                           Mitigating Factors

       Upon receipt of the NSF inquiry letter, the Co-PI immediately acknowledged having copied
the material, immediately accepted responsibility for his actions, and avowed being personally and
professionally embarrassed by his action.

39
     45 C.F.R. § 689.3(b).
40   NSF Grant Proposal Guide, Chapter II, Section C.2.e


                                                           7
CONFIDENTIAL                                                                          CONFIDENTIAL'




                                                  Recommendation

Based on the evidence, OIG recommends that NSF:

             •    send a letter of reprimand to the Co-PI informing him that NSF has made a finding
                  of research misconduct;41

             •    require the Co-PI to certify to OIG's Associate Inspector General for Investigations
                  (AlGI) that proposals or reports he submits to NSF do not contain plagiarized
                  material for 1'year from the date ofthe research misconduct finding;42

             •    require the Co-PI to send to OIG's Associate Inspector General for Investigations
                  (AlGI) copies of all materials developed for the University-imposed presentation on
                  research ethics; and

             •    Require certification of completion of a course in research ethics be submitted to
                  AlGI within a year of the research misconduct finding.


                          The Subject's Response to Draft Investigation Report

       We provided the Co-PI with a copy of our draft report and attachments, and afforded him
the opportunity to comment. 43

         In his response,44 the Co-PI contested our statement on page 5: "We informed the Co-PI we
had received the Report and invited him to provide additional comment. The Co-PI chose not to
respond." Specifically, he said "I did not willfully 'choose not to respond' to the letter of February
13 th and ... I have been a willing and helpful participant in the investigations." He noted that,
other than a brief return to his University to address the allegations, he "was overseas conducting "
fieldwork and research during the entirety of this process." As such, by the time he received our
February 13 th letter, our deadline for comment had elapsed. He similarly noted he had not even'
seen the Report until he received it as an attachment to our July 29 th correspondence. Nonetheless,
the Co-PI stated he agreed with both his University's and our findings and recommendations.'




41 A letter of reprimand is a Group I action (45 C.F.R. §689.3(a)(I)(i)).
42 Certification by an individual is authorized in 45 C.F.R. §689.3(c).
43 Tab 13.
4~ Tab 14.


                                                            8
                                 NATIONAL SCIENCE FOUNDATrON
                                     4201 WILSON BOULEVARD
                                    ARLINGTON. VIRGINIA 22230



                                         JAN 2 Ii 2010




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re:     Notice of Research Mis.collduct Determination



       In 2008, you served as a co-PIon a nrn.nnc~~
Foundation

      As documented in the attached Investigative Report prepared by NSF's Office of Inspectpr
General ("OIG"), this proposal contained plagiarized text and embedded references for which
you were responsible.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposjng or performing research funded by NSF ... " 45 CFR § 689.l(a). NSF
defines «plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689. 1(a)(3). A finding of research misconduct ,.
requu'es that:

       (1) There be a signHicant departure from accepted practices of the relevant 'research
        , community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CPR § 689.2(c).

        Your proposal contained verbatim and paraphrased text, as well as several embedded
references, copied from two source documents. By SUbmitting a proposal to NSF Jhat copied the
ideas or words of !lnother without adequate attribution, as described in the OIG Investigative .
Report, you misrepresented someone else's wode as yow' own. Your conduct unquestionabJy
constitutes plagiarism. I therefore conclude that your actions meet the definition of "research
                                                                                              Page 2
 misconduct" set forth in NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plagiarism was conunitted recklessly and constituted a significant departure from
 accepted practices of the relevant research community. I am, therefore, issuing a fmding of
research misconduct against you.

         NSF's regulations establish three categories of actions (Group I, IT, and Ill) that can be
taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(1).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2). Group ill actions include suspension or tenninatioll of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debannent
or suspension from pal1icipation in NSF programs. 45 CFR § 689.3(a)(3).

        In detennining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, our detennination that it was committed recklessly,
as well as our determination that it was an isolated incigent. I have also considered the fact that
your misconduct had no impact on the research record, the fact that you displayed contrition for
your actions, as well as other relevant circumstances. 45 CFR § 689.3 (b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

       (1)     Until January 15,2011, you must provide certifications to the ala that any
               proposal you submit to NSF as a PI or co-PI does not contain plagiarized material;

       (2)     By January 15,2011, depending upon the option you selected, you must send to
               the OIG either copies of all materials that you developed for the presentation on
               research ethics that the University required you to conduct for the graduate student
               community, or a copy ofthe syllabus and course materials that you developed for
               a new research ethics class at the University; and

       (3)     By January 15,2011, you must complete a research ethics training course
               covering plagiarism, and certify ~o the OIG that you have done so .

       .All certifications should be submitted in writing to OIG. Associate Inspector General for
Investigations, 4201 Wilson Boulevard, Arlington, Virginia 22230.
                                                                                            Page 3
Procedures Governing Appeals
        Under NSF's regulations, you have 30 days after receipt ofthis letter to 'submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR § 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. Hwe do not receive your appeal within the 30-day period, this
decision will become final.

       For your information, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing. please call            , Assistant General Counsel, at (703)
292-8060.


                                                    Sincerely,



                                                    Cora B. Marrett
                                                    Acting Deputy Director




Enclosures
- Investigative Report
- 45 C.F.R. Part 689
